Audit
Report
CONTROLS OVER THE COMPUTERIZED ACCOUNTS PAYABLE SYSTEM AT
    DEFENSE FINANCE AND ACCOUNTING SERVICE KANSAS CITY


Report No. D-2002-008                      October 19, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAPS(W)               Computerized Accounts Payable System for Windows
CAGE                  Contractor Activity Government Entity
C.F.R.                Code of Federal Regulations
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Security Agency
DPPS                  Defense Procurement Payment System
DUNS                  Data Universal Numbering System
EFT                   Electronic Funds Transfer
FAR                   Federal Acquisition Regulation
FSD                   Financial Systems Directorate
GAO                   General Accounting Office
OMB                   Office of Management and Budget
PPA                   Prompt Payment Act
                       Office of the Inspector General, DoD
Report No. D-2002-008                                               October 19, 2001
  (Project No. D2000FI-0248)

      Controls Over the Computerized Accounts Payable System at
         Defense Finance and Accounting Service Kansas City

                               Executive Summary

Introduction. Serious internal control weaknesses have been reported over the years in
DoD payment processes and systems. The Defense Finance and Accounting Service
(DFAS) Kansas City used the Computerized Accounts Payable System for Windows
(CAPS[W]) to make vendor payments to Marine Corps customers. During FY 2000,
75,861 vendor payments, valued at $1.2 billion, were made for Marine Corps
customers using CAPS(W). On April 1, 2001, the Director, DFAS, capitalized all
commercial payment resources under the Director, Commercial Pay Services. This is
the first in a series of audit reports addressing the controls over the Computerized
Accounts Payable System.

Objectives. Our objectives were to evaluate the controls associated with making
payments using the Computerized Accounts Payable System and progress in
transitioning to the Defense Procurement Payment System. This report focuses on the
controls associated with making vendor payments. We also evaluated the effectiveness
of the management control program as it related to making vendor payments using the
Computerized Accounts Payable System.

Results. DFAS Kansas City took actions to systematically segregate access within
CAPS(W). However, two systems management personnel had unrestricted access to
CAPS(W) and other system users performed functions that required further segregation.
When coupled with other system deficiencies and control weaknesses, CAPS(W) was
vulnerable to improper and unauthorized use (finding A).

DFAS Kansas City made 17,983 payments from May 1 through July 31, 2000, and
approximately 16,605 of these payments did not meet all the documentation or other
requirements imposed by OMB regulations implementing the Prompt Payment Act.
The fact that a payment was not supported did not mean that the payment was invalid or
fraudulent, but indicated management’s failure to enforce the requirements necessary
for proper support. As a result, DFAS and Marine Corps managers assumed an
increased risk that payments were not being made in compliance with the Prompt
Payment Act and that improper payments may have been made (finding B).

The structure and business practices of the vendor payment office at DFAS Kansas City
did not provide efficient and effective controls over vendor payments. As a result,
DFAS Kansas City did not ensure that improperly supported and erroneous payments
would be detected and corrected before payment (finding C). See Appendix A for
details on the management control program as it relates to controls over vendor
payments.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics, require the use of DD Form 250,
“Material Inspection and Receiving Report,” as the primary means for documenting
receipt and acceptance of goods and services. We recommend that the Director,
Commercial Pay Services, develop compensating controls and change the business
structure and practices at DFAS Kansas City for making payments using CAPS(W).
We also recommend the removal of remote access to update and certify information in
CAPS(W). We also recommend that the Director, Commercial Pay Services, issue
interim guidance that discontinues exceptions to the requirements for a proper invoice,
specifies what a receiving report must contain to properly support a payment, and
standardizes the rules for making properly supported miscellaneous payments. We
recommend that the Director, Commercial Pay Services, in conjunction with the
Marine Corps, develop stringent procedures for accepting invoice receipt dates affixed
outside the payment office, return all invoices to vendors that do not meet payment
requirements, and issue guidance to Marine Corps activities identifying the standards
for proper receipt and acceptance of goods and services. We recommend that the
Deputy Chief of Staff for Installations and Logistics, Marine Corps, ensures that all
contracting documents provide the information necessary for making proper payments.

Management Comments. The Director, Defense Procurement, concurred with the
recommendation to require the use of DD Form 250 as the primary means of
documenting receipt and acceptance. The Director, Commercial Pay Services, agreed
to develop a standard business structure and more stringent procedures for accepting
invoice receipt dates, returning invoices, and entering data into CAPS(W). The
Director, Commercial Pay Services, also agreed to review system access profiles to
ensure that they properly segregate duties. The Director, Commercial Pay Services,
partially agreed with the need to provide guidance and training to Marine Corps
activities on receiving reports, improve certification of payments, perform more
frequent post-payment reviews, and provide interim guidance on requirements for
proper invoices and receiving reports. The Director, Commercial Pay Services, did not
agree with the need to remove remote access from Marine Corps activities. The
Marine Corps did not provide comments to the draft of the final report. See the
Finding section of the report for a discussion of management comments and the
Management Comments section for a complete text of the comments.

Audit Response. Comments from the Director, Defense Procurement, were
responsive. We request that the Director, Defense Procurement, provide an estimated
completion date for the corrective action. Comments from the Director, Commercial
Pay Services, were generally responsive. We request that the Director, Commercial
Pay Services, reconsider her position on the need to remove access from Marine Corps
activities until CAPS(W) can provide proper segregation of duties and security over
remotely entered data. We request that Director, Defense Procurement; DFAS; and the
Marine Corps provide comments on the final report by December 19, 2001.



                                           ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               2

Findings
     A. System Access Controls                                                3
     B. Documentation Supporting Vendor Payments                             12
     C. Vendor Payment Office Structure and Practices                        26

Appendixes
     A. Audit Process
          Scope                                                              36
          Methodology                                                        36
          Management Control Program Review                                  37
     B. Prior Coverage                                                       39
     C. Statistical Sampling Methodology                                     40
     D. Guidance on Supporting Documentation                                 43
     E. Report Distribution                                                  48

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   51
     Defense Finance and Accounting Service                                  53
Background
    Vendor Payments. Vendor payments are made for operational support such as
    utilities, medical services, and administrative supplies and services. The current
    vendor payment process depends on the receipt of various hard-copy documents.
    As a general rule, payments must be supported by an obligating document
    (contract, purchase order, or other document obligating DoD to pay for goods
    or services), an invoice, and a receiving report. For most payments made for
    Marine Corps customers, technicians at Defense Finance and Accounting
    Service (DFAS) Kansas City, Kansas City, Missouri, review supporting
    documents for accuracy and completeness. The information is entered into the
    Computerized Accounts Payable System for Windows (CAPS[W]) to create a
    payment voucher, which is then approved for payment by a certifying official.
    Certifying officers should compare the payment vouchers to the supporting
    invoices, receiving reports, and contract or obligation documents to ensure the
    accuracy of the payment information before disbursement. For utility payments,
    DFAS Kansas City transferred the function of reviewing documents and
    certifying payments to Marine Corps installations. Following certification, the
    payment information is loaded into the disbursing system. The disbursing
    system uses the payment transactions generated by CAPS(W) to make
    disbursements.

    Inspector General, DoD, Report. At the request of Senator Charles E.
    Grassley, the Inspector General, DoD, audited the results of the actions taken
    within the Air Force vendor payment network to correct problems previously
    reported. Inspector General, DoD, Report No. D-2000-139, “Controls Over
    the Integrated Accounts Payable System,” June 5, 2000, reported that
    DFAS Denver, Denver, Colorado, established systematic controls to segregate
    duties and reduced access to the Integrated Accounts Payable System, the
    system used to process Air Force payments. However, DFAS Denver needed to
    reassess the system access given to users, especially those outside their field
    sites. Giving more people access than was necessary increased the risk of
    unwarranted and unauthorized access and the likelihood that unsupported and
    improper payments would be made. Other system weaknesses contributed to
    unauthorized Integrated Accounts Payable System access and the ability to
    circumvent payment of interest to vendors as required by the Prompt Payment
    Act (PPA).

    Automated System for Making Marine Corps Vendor Payments. DFAS
    Kansas City is responsible for the accounting, disbursing, collecting, and
    financial reporting of the Marine Corps. DFAS Kansas City uses CAPS(W) to
    process Marine Corps vendor payments. The system computes the payment due
    dates, payment amounts, and interest payments. CAPS(W) receives data from
    manual sources and from interfaces with automated systems such as the standard
    procurement system. CAPS(W) uses both automated and manual controls to
    maintain accurate and complete data. DFAS originally planned to replace
    CAPS(W) at DFAS Kansas City with the Defense Procurement Payment System
    (DPPS) in December 2001. However, the implementation date has slipped and
    a revised date had not been set.




                                        1
     Realignment of Vendor Payment Operations. On March 29, 2001, the
     Director, DFAS, announced the capitalization of all commercial payment
     resources under the Commercial Pay Business Line. The Director, Commercial
     Pay Services, is responsible for the commercial pay business line. This business
     line is comprised of two product lines (contract pay and vendor pay). The
     Vendor Pay Product Line encompasses entitlement determination for contracts
     not administered by Defense Contract Management Agency, transportation
     payments, and miscellaneous payments to businesses and individuals. All
     vendor payment functions at DFAS Kansas City have been realigned under the
     U.S. Marine Corps and Defense Agency Support Directorate of the Vendor Pay
     Product Line.

Objectives
     Our objectives were to evaluate the controls associated with making payments
     using the CAPS and progress in transitioning to DPPS. This report focuses on
     the controls associated with making vendor payments. We also evaluated the
     effectiveness of the management control program as it related to making vendor
     payments using CAPS. See Appendix A for a discussion of the audit scope and
     methodology and our review of the management control program. See
     Appendix B for a summary of prior coverage.




                                        2
           A. System Access Controls
           DFAS Kansas City took actions to systematically segregate access within
           CAPS(W). However, systems management personnel had unrestricted access
           to CAPS(W) and other system users performed functions that required further
           segregation. This occurred because:

                   •   access profiles were not centrally developed and controlled,

                   •   access profiles did not fully segregate user functions, and

                   •   remote user access was not monitored.

           When coupled with other system deficiencies and control weaknesses,
           CAPS(W) was vulnerable to improper and unauthorized use.

Direction and Guidance
    In August 1998, the Director, DFAS, directed all DFAS vendor payment offices to
    perform a comprehensive review of the segregation of duties within their vendor
    payment systems. In General Accounting Office (GAO) Report
    No. GAO/AIMD-98-274, “Improvements Needed in Air Force Vendor Payment
    Systems and Controls,” September 28, 1998, GAO recommended that the Director,
    DFAS, strengthen payment processing controls by establishing separate
    organizational responsibilities for entering payment data and revising vendor
    payment access levels to correspond with the new structure. GAO Report No.
    GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal
    Government,” November 1, 1999, requires access restrictions and segregation of
    key duties in authorizing, processing, recording, and reviewing transactions.

DFAS Kansas City Databases
    Main Database. DFAS Kansas City maintained two separate CAPS(W) databases
    for making Marine Corps vendor payments. DFAS Kansas City vendor payment
    personnel used one database to make a majority of the Marine Corps payments. As
    of October 30, 2000, access to this database was granted to 61 DFAS Kansas City
    vendor payment personnel and 19 Financial Systems Directorate (FSD) personnel at
    DFAS Indianapolis. The FSD personnel provide system maintenance and support
    functions for CAPS(W) users. The ability to update data within CAPS(W) and
    inquire about the status of payments is controlled by access profiles.

    Database for Making Utility Payments. DFAS Kansas City created a second
    database to allow for the payment of utility bills by personnel at 13 Marine Corps
    installations. Utility companies submitted electricity, gas, water, and sewer bills. In
    February 2000, DFAS Kansas City issued guidance stating that remote users would
    be allowed to process utility payments directly in CAPS(W). Access to the second
    database was granted to 44 Marine Corps personnel at the 13 installations and
    2 individuals assigned to the DFAS Kansas City systems office. Each person had the
    ability to process the information needed to make payments. Remote users entered


                                           3
    the information supporting the payment (obligation document, invoice, and receiving
    report) into CAPS(W), certified the payment, and then sent DFAS Kansas City a
    signed voucher worksheet. DFAS Kansas City personnel compared the signature on
    the voucher worksheet to a signature card on file and the payment was uploaded to
    the disbursing system.

System Access to the Main Database
    In January 2000, DFAS Kansas City significantly improved the segregation of duties
    within the vendor payment office by separating the functional capabilities assigned to
    12 access profiles. Access was divided by the ability to enter invoice and receipt
    data, purchase order information, vendor maintenance data, data needed to make
    miscellaneous payments, and the ability to certify payments. Table 1 shows each of
    the 12 access profiles for the 80 personnel granted access to the database used to
    make the majority of the Marine Corps payments. The table also identifies the
    functional capabilities associated with each access profile.




                                          4
                   Table 1. Access to Main DFAS Kansas City Database

                                                       Functional Capability
               Number of      Invoice and    Miscellaneous      Purchase         Vendor
     Profile   Individuals     Receiving      Payments           Order          Maintenance       Certify
                                Reports                        Maintenance
All                 2             All1         Accessible2          All              All         Accessible

Citibank3           5              All         Accessible           All             None           None

Citibank            1
Lead                            Inquiry4          None            Inquiry          Inquiry       Accessible

Contract            6
Input                           Inquiry           None              All              All           None

Examiner 1          20             All         Accessible         Inquiry          Inquiry         None

Financial           1           Inquiry           None            Inquiry          Inquiry         None
Analyst

FSD                 18             All         Accessible           All            Inquiry         None
Support

Lead                5           Inquiry           None            Inquiry          Inquiry       Accessible

Lead 1              1           Inquiry           None            Inquiry          Inquiry       Accessible

Read Only           19           None             None             None             None           None

Reports             1            None             None            Inquiry          Inquiry         None

Support             1           Inquiry           None              All              All           None
Team
Leader


1. “All” means the ability to add, delete, inquire, and update within a function.
2. Related to the Miscellaneous Payments function, “accessible” means the ability to enter all the data for
   processing a miscellaneous payment. Related to the Certify function, “accessible” means the ability to
   certify the payment in CAPS(W).
3. The Citibank profile allows technicians to enter information related to credit card accounts.
4. “Inquiry” means that the function can only be inquired.




          Access Profiles. Despite the efforts taken by DFAS Kansas City to segregate access
          within CAPS(W), duties were still not properly segregated. In addition, the ability


                                                       5
to delete data in CAPS(W) was not adequately controlled and the miscellaneous
payment function was not restricted to nonrecurring payments. The Director,
Commercial Pay Services, should establish standard access profiles for use
throughout the CAPS(W) network. As discussed in finding C, the access profiles
should complement the business structure developed for vendor payment offices. In
the interim, improved controls over system access are essential to reduce the risk
that the data in CAPS(W) are manipulated to circumvent PPA requirements or to
make fraudulent payments.

        System and FSD Support. Two individuals within the systems office at
DFAS Kansas City had unrestricted system access and 18 FSD personnel were
inappropriately granted the ability to add, update, and delete operational data within
the database. After we discussed our concerns about the access granted to systems
management personnel, DFAS Kansas City deleted the “All” profile and created a
new “Systems Admin” profile. The new profile removed the ability to certify
payments but continued to allow them to add, update, and delete operational data
such as purchase order information, invoices, and receiving reports. The “FSD
Support” profile granted 18 FSD personnel at DFAS Indianapolis with the ability to
update operational data within CAPS(W). Systems management personnel stated
that the access granted the “Systems Admin” and “FSD Support” profiles was
needed to assist technicians with troubleshooting problems in CAPS(W). However,
they could not justify why these capabilities were required on a continuous basis.
We believe that systems management personnel should not have uncontrolled update
access to the operational database for indefinite periods of time. If they require
access to troubleshoot an operational problem, systems management personnel
should perform these actions in a test database or they should only be given access
for the period of time needed to correct the problem.

        Proper Access Documentation. The 18 FSD personnel were granted access
to CAPS(W) without completing DISA (Defense Information Security Agency)
Form 41, “System Authorization Access Request,” and receiving the approval of the
on-site database administrator and functional manager at DFAS Kansas City. Each
DISA Form 41 should specify the level of access granted and indicate that systems
managers approved the access. A DISA Form 41 was not on file at DFAS Kansas
City for any of the 18 FSD personnel.

       Vendor Maintenance. DFAS Kansas City granted too many users the ability
to update vendor maintenance tables and provided those with this access the ability to
update other vendor payment information. Only a limited number of individuals
should be allowed to update the vendor maintenance tables containing Electronic
Funds Transfer (EFT) and check remittance information. However, these
individuals should not be able to alter any of the other payment data or certify the
payment. The nine individuals with the “All,” “Contract Input,” and “Support
Team Leader” profiles could update the vendor maintenance tables. They could also
add, update, or delete purchase order data. The two individuals in the “All” profile
could also add, update, and delete invoice and receipt data and certify a payment.
The ability to update vendor maintenance tables should be limited. For example, the




                                       6
vendor payment offices that used the Integrated Accounts Payable System
limited access to no more than three people, and these people did not have the
ability to update any other type of vendor payment information.

        Deletion of Records. The ability to delete data in CAPS(W) was not
adequately controlled. Individuals with the functional capability to add, inquire,
and update invoices and receiving reports; perform purchase order maintenance;
and maintain vendor information could also delete that information from
CAPS(W). The ability to delete data was not separated from the ability to add,
inquire, and update data in the profiles established by DFAS Kansas City. Only
a limited number of individuals should have the ability to delete data from
CAPS(W). This ability should be restricted to either the supervisors of the
accounts payable section or the senior staff accountant in the vendor payment
office. Further, a proper audit trail should be developed and maintained of all
data removed from the system. For example, DFAS St. Louis, St. Louis,
Missouri, had limited the ability to delete records to only the staff accountants
working within the vendor payment office. Before data were removed from
CAPS(W), a technician provided a staff accountant with documentation
explaining why the data required removal. The documentation was maintained
and compared to the CAPS(W) report, “Deleted Records Report,” to validate
that data were removed properly. The ability to delete data from CAPS(W)
should be better controlled in order to limit the risk that interest penalties are
avoided by removing old documents from the system and calculating new
payment due dates.

        Miscellaneous Payments. DFAS Kansas City should limit the number
of individuals granted the miscellaneous payments function and restrict the use
of the function to only specific types of miscellaneous payments. DFAS Kansas
City granted 45 individuals with the ability to enter all the data (invoice, receipt,
obligation, and vendor remittance data) for entitling a miscellaneous payment.
The function was created to expedite the entry of data for making miscellaneous
payments. Twenty of the 45 individuals were systems management personnel
who had been assigned the “FSD Support” and “All” access profiles. Twenty
voucher examiners also had this functional capability. As previously discussed,
systems management personnel should not routinely have the ability to process
the information necessary to make vendor payments. Because of the extensive
capability granted the miscellaneous payments function, no more than five
individuals assigned the “Examiner 1” access profile should be granted this
function. Most of the 30 different types of miscellaneous payments that DFAS
Kansas City made were less than $2,500 and were often not individually
reviewed and certified before they were made. The use of the miscellaneous
payments function should usually be limited to one-time payments, such as legal
claims. Recurring payments, such as utility payments, should be established in
CAPS(W) as contract payments so that more than one individual would be
responsible for entering the data for entitling the payments.




                                      7
Remote Access
    Allowing personnel at Marine Corps installations to remotely enter and certify
    payment data was risky because CAPS(W) did not limit access within the
    database. CAPS(W) did not prevent system users at Marine Corps installations
    from updating data and certifying payments of other installations. In addition,
    DFAS Kansas City had not established appropriate compensating controls to
    ensure the integrity of the remotely entered data.

            Segregating Duties of Remote Users. CAPS(W) did not restrict access
    within a database. An individual given the ability to add, update, or delete
    information could alter entitlement information for any organization in the
    database. A certification official could certify any payment in the database. For
    example, the two individuals in the systems office at DFAS Kansas City could
    enter, update, and delete payment data and certify all payments in the database.
    Consequently, the data entered by the 13 Marine Corps installations were not
    secure and could be altered by anyone with similar access. The installations
    attempted to segregate duties by requiring that different individuals enter the
    data and certify the payment. Specifically:

           •   25 individuals could enter, update, and delete invoices, receiving
               reports, purchase order data, and vendor remittance information.
               These 25 individuals could update or delete any information in the
               database.

           •   19 individuals could certify payments. Although DFAS Kansas City
               had signature cards and appointment letters on file for each of these
               individuals, CAPS(W) allowed certification officials to certify any
               payment in the database.

            A system change to CAPS(W) had been requested in February 1998 that
    would have restricted the ability of remote users to access only the information
    related to their organization. However, the system change was not made
    because of its cost and the anticipated fielding of DPPS. DFAS plans to field
    DPPS at DFAS Kansas City in December 2001. However, the date slipped and
    a revised date had not been set. Unless compensating controls are in place to
    ensure that unauthorized changes to payment information are prevented or
    immediately identified and corrected, people outside the paying office should
    not have the ability to change the information in CAPS(W). The access granted
    the 2 individuals in the systems office at DFAS Kansas City should be removed,
    and the access of the 25 individuals should be segregated. One individual
    should not be able to enter, update, and delete invoices and receiving reports;
    perform purchase order maintenance; and maintain vendor remittance
    information.

            Compensating Controls. DFAS Kansas City had not established a
    memorandum of understanding with each of the 13 Marine Corps installations
    that identified the specific types of payments that could have been processed in
    the database, requirements for properly supporting payments, and procedures
    for retaining documents supporting payments. Although DFAS Kansas City had
    the ability to delete any transaction from the upload to the disbursing system,


                                        8
           DFAS Kansas City had not established other compensating controls to ensure
           that individuals were not inappropriately altering data within the database and
           that the payments were proper. DFAS Kansas City was not monitoring the
           system to ensure that only appropriately authorized individuals were entering,
           altering, and deleting information supporting payments and certifying payments.
           At a minimum, an audit trail should be established and periodically reviewed to
           detect changes to entitlement data. DFAS Kansas City should also periodically
           perform a detailed review of the types of payments that are entered remotely and
           the support for them. Remote access to update and certify information in
           CAPS(W) should be removed until such time as CAPS(W) can be changed,
           replaced, or adequate compensating controls developed and implemented.

CAPS(W) System Concerns
           DFAS Kansas City reported as a material weakness in its FY 2000 Annual
           Statement of Assurance, dated October 25, 2000, that access controls within
           CAPS(W) were inadequate. Specifically, the FY 2000 Annual Statement of
           Assurance reported that:

                   •    individuals assigned to DFAS Kansas City systems management
                        office had a global (“All”) access that allowed them to perform
                        functions that could result in fraudulent payments that would be
                        difficult or impossible to detect,

                   •    DFAS Kansas City systems management office personnel could
                        self-assign and modify access capabilities, and

                   •    FSD personnel at DFAS Indianapolis could manipulate databases
                        without proper audit trails and control by the DFAS Kansas City
                        systems management office.

           DFAS Kansas City concluded that because it did not have control of CAPS(W),
           the problems needed to be resolved by DFAS Arlington.* We agree that system
           changes were outside the control of DFAS Kansas City. However, DFAS
           Kansas City could have eliminated the access granted by the “All” profile and
           developed compensating controls to monitor the changes made by systems
           management personnel.

Summary
           DFAS Kansas City did not sufficiently segregate access within CAPS(W) and
           limit the number of users who could update the vendor maintenance tables, enter
           miscellaneous payments, and delete information in CAPS(W). Systems
           management personnel should not have universal system access. Users granted
           access to CAPS(W) should properly complete access forms to include approvals
           by the functional manager and database administrator. Standard user profiles
           for CAPS(W) should be developed that fully consider the need to standardize the

*
    DFAS Arlington is the site of DFAS headquarters.



                                                       9
    structure of the vendor payment office and business practices within DFAS for
    making vendor payments. Although DFAS Kansas City identified system access
    issues as a material management control weakness in its FY 2000 Annual
    Statement of Assurance, it had not taken sufficient actions to correct the
    problems and identified the full scope of system weaknesses that could result in
    unauthorized CAPS(W) access and the manipulation of certified payment data.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Commercial Pay Services, establish
    compensating controls at the Defense Finance and Accounting Service
    Kansas City that will:

           1. Restrict the access granted under the “Financial Systems
    Directorate Support” and “System Admin” profiles to system related
    functions for specific periods of time.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS would review system access profiles to ensure that they
    provide adequate separation of duties.

           2. Ensure a Defense Information Security Agency Form 41, “System
    Authorization Access Request,” is properly completed and on file before
    granting access to the Computerized Accounts Payable System for
    Windows.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that a properly completed DISA Form 41 on file before granting access to
    CAPS(W).

            3. Limit access to update vendor maintenance tables and eliminate
    other types of update access granted to individuals with vendor maintenance
    access.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS will review system access profiles to ensure that they provide
    adequate separation of duties.

          4. Limit the ability to delete data from the Computerized Accounts
    Payable System for Windows and establish audit trails for data removed
    from the system.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS will review system access profiles to ensure that they provide
    adequate separation of duties.

          5. Limit the use of the miscellaneous payments function to
    nonrecurring payments.



                                       10
DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS will review system access profiles to ensure that they provide
adequate separation of duties.

      6. Remove remote access to update and certify information in the
Computerized Accounts Payable System for Windows until the system can
provide proper segregation of duties and security over remotely entered
data.

DFAS Comments. The Director, Commercial Pay Services, nonconcurred and
stated that a separate CAPS(W) database was used to manage Marine Corps
utility payments. The Director also stated that DFAS will work with the Marine
Corps to ensure that certification officials only certify payments belonging to the
certifying official’s organization.
Audit Response. The DFAS comments were partially responsive. While the
ability to update and certify information was somewhat restricted by using a
separate database, individuals working in organizations at the 13 sites had access
to the database and could alter payment information that did not belong to their
organization. Until CAPS(W) can provide security over remotely entered data,
remote access should be removed. We request that DFAS reconsider its
position on the recommendation and provide comments on the final report.




                                    11
          B. Documentation Supporting Vendor
             Payments
          DFAS Kansas City made 17,983 payments from May 1 through July 31,
          2000, and approximately 16,605 of these payments lacked at least one
          element of support prescribed in 5 Code of Federal Regulations (C.F.R.)
          Part 1315. Both contract and miscellaneous payments lacked the
          required documentation. The fact that a payment was not supported did
          not mean that the payment was invalid or fraudulent, but indicated
          management’s failure to enforce the requirements necessary for proper
          support. Payments were made without the proper support because:

              •   DoD Regulation 7000.14-R, volume 10, allowed exceptions to
                  requirements for a proper invoice and did not specify what a
                  receiving report must contain to properly support a payment;

              •   DoD guidance in the Federal Acquisition Regulation (FAR) and
                  the DoD Regulation 7000.14-R, volume 10, is inconsistent with
                  and has not been revised to comply with 5 C.F.R. Part 1315;

              •   standardized rules for making properly supported miscellaneous
                  payments did not exist; and

              •   DFAS Kansas City technicians and certification officials either
                  did not detect missing and incomplete items on supporting
                  documents or considered the items unnecessary for making the
                  payments.

          As a result, DFAS and Marine Corps managers incurred an increased
          risk that payments were not being made in compliance with the Prompt
          Payment Act (PPA) and that improper payments may have been made.

Review of Vendor Payments
    Criteria. The principal guidance used for making payment to vendors was the
    PPA, as implemented by the Office of Management and Budget (OMB) in
    5 C.F.R. Part 1315, “Prompt Payment; Final Rule,” September 29, 1999. The
    OMB guidance has strict requirements that supporting documents must meet in
    order to be considered proper. The PPA and supporting documentation
    requirements are further described in FAR subpart 32.9, “Prompt Payment;”
    Defense Federal Acquisition Regulation Supplement (DFARS) subpart 232.9,
    “Prompt Payment;” and DoD Regulation 7000.14-R, volume 10, “Contract
    Payment Policy and Procedures,” November 1999. The FAR subpart 32.9,
    DFARS subpart 232.9, and DoD Regulation 7000.14-R, volume 10, are in the
    process of being updated. DFAS Kansas City made payments based on contract
    documents that needed to comply with the prompt payment criteria and
    miscellaneous payments that had limited business rules on how each payment
    should be supported. DoD Regulation 7000.14-R, volume 10, also contains
    some information on how to support many of the miscellaneous payments made


                                      12
    by DoD. DFAS Kansas City further defined the requirements for supporting
    documents within a locally developed standard operating procedure. DFAS
    Kansas City revised its Vendor Pay Standard Operating Procedures in
    October 2000. Guidance on supporting documentation is discussed in
    Appendix D.

    Sample Selection. To determine whether the documents that were used to
    support CAPS(W) payments complied with 5 C.F.R. Part 1315 requirements,
    we obtained a population of 17,983 payments, valued at $290.6 million, made
    using CAPS(W) from May 1 through July 31, 2000. From this population, we
    selected a sample of 208 payments in 3 strata. We used the criteria in the
    5 C.F.R. Part 1315 to assess the documents (invoice, receiving report, and
    obligation document) that supported each sample item. The sample also
    determined whether the data on the supporting documents were entered correctly
    in CAPS(W). Details concerning sample selection are contained in Appendix C.

Sample Results
    Approximately 16,605 of the 17,983 payments made from May 1 through
    July 31, 2000, were not supported in compliance with 5 C.F.R. Part 1315
    requirements. Of the 208 sample items reviewed, 101 items were contractual
    payments and 107 items were miscellaneous payments. Table 2 shows the
    projections of the estimated number of payments that were not properly
    supported for each type of payment. Appendix C gives details of projections
    and confidence levels.

             Table 2. Estimated Payments Not Properly Supported
                             by Type of Payment
      Type of Payment      Total Payments         Estimate of Improperly
                                                   Supported Payments
        Contractual             8,175                      7,511
       Miscellaneous            9,808                      9,094
           Total               17,983                     16,605


    Documents supporting contract payments must meet the 5 C.F.R. Part 1315
    requirements to be considered proper. We held supporting documentation for
    miscellaneous payments to very similar standards. Although a case can be made
    for not holding miscellaneous payments to these strict standards, standard
    business rules outlining the requirements for supporting documentation for
    miscellaneous payment was limited. A determination that a payment was not
    properly supported did not mean that the payment was invalid or fraudulent.
    Instead, it showed that DFAS Kansas City had not strictly enforced the 5 C.F.R.
    Part 1315 requirements for supporting documents, creating an environment
    where improper and fraudulent payments could be made without detection. Our
    sample also showed that 37 payments were considered improper because the
    vendor was paid the incorrect amount or the payment should not have been



                                        13
    made based on the supporting documentation provided. When projected across
    the population, this would result in between 2,045 and 4,680 improper
    payments.

Contractual Payments
    Determination of Proper Payments. The results of the sample showed that
    DFAS Kansas City made about 7,511 contract payments from May 1 through
    July 31, 2000, without the proper support. The payments were made because
    DFAS Kansas City technicians and certification officials either did not detect
    missing items required on supporting documents or considered the items
    unnecessary for making the payments. Documents that lacked elements of
    support prescribed in regulations implementing the PPA were to be returned to
    the originator and no payment made until a corrected copy of the document was
    obtained. If the document did not meet these requirements, we considered it
    improper. Table 3 shows the estimated number of unsupported payments
    caused by each type of supporting document. Because more than one document
    could have caused a payment to be unsupported, the total number of improperly
    supported payments in Table 3 exceeds 7,511 payments. Appendix C provides
    details of the sample.

               Table 3. Estimated Number of Payments Not Properly
                         Supported by Type of Document

         Improper Document                       Number of Payments

                Invoice                                  2,916

           Receiving Report                              7,315

               Contract                             Not Reportable


            Invoices. The review of sample payments showed that 31 of
    101 invoices did not properly support the payments. Invoices were improper if
    they did not contain a contract or obligating document number, did not
    adequately describe what was purchased or the description was inconsistent with
    the contract, or were altered. When our results were projected over the
    population, about 2,916 invoices submitted were not proper for payment and
    should have been returned. Appendix C gives details of the sample projections.
    DFAS Kansas City technicians accepted the invoices even though they were
    missing information or the information on them was incomplete. DoD
    Regulation 7000.14-R, volume 10, allowed exceptions to requirements for a
    valid invoice. The regulation states that it is not necessary for an invoice to be
    free of defects in order for it to be proper and create a valid demand on the
    Government; the approving activity determines whether a valid demand exists.
    These exceptions were contrary to 5 C.F.R. Part 1315 and FAR requirements




                                        14
(Appendix D). We also identified problems with the computation of invoice
receipt dates when the designated billing office was other than the payment
office.

       Contract Numbers. DFAS Kansas City made payments based on
invoices that did not have contract numbers identified on the original invoices
submitted by the vendors. DFAS Kansas City either created the contract number
from other sources or accepted an invoice that had the contract number corrected
by someone other than the vendor. The sample showed that this condition
occurred for 20 contract payments. For example, a contractor submitted invoice
number 478115, to Marine Corps Air Station, Cherry Point, North Carolina, for
services rendered during FY 2000. The invoice cited an incomplete contract
number. Instead of returning the invoice to the vendor to ensure the payment
was made to the correct contract, personnel at the installation contracting office
placed the contract number on the invoice. In another situation, a vendor
submitted invoice number E87833 to Marine Corps Detachment, Aberdeen
Proving Ground, Maryland, without a contract number on the invoice. The
Marine Corps Detachment forwarded the invoice to DFAS Kansas City along
with the receiving report. On the receiving report, Aberdeen Proving Ground
personnel cited the correct contract number. Instead of returning the invoice to
the vendor for correction, DFAS Kansas City used the contract number on the
receiving report to overcome the omission on the invoice.

                Descriptions Consistent with the Contract. Invoices submitted
for payment should describe the goods received or services performed and be
consistent with the line items contained in the contract. In 16 of the payments
reviewed, the items billed were not consistent with the items contained in the
contract or did not contain an adequate description of what was invoiced. For
example, a contractor submitted invoice number 99-07Y-000514 to Marine Corps
Logistics Base, Barstow, California. The invoice stated that it was for work
done on an oil separator in Building 375. The contract delivery order identified
nine different line items for several types of labor, material, and equipment, but
did not indicate anything about an oil separator or Building 375. DFAS Kansas
City technicians assumed that the vendor provided the services contracted for
because the total amount from the invoice matched the total amount on the
delivery order. The technicians should have returned the invoice to the vendor
and requested that a corrected invoice be provided specifying the line items
contained in the contract delivery order. In another case, a vendor submitted
invoice number CP0500 to Marine Corps Air Station, Cherry Point, North
Carolina, for reimbursement of dumping fees and part of the fixed-price work on
the contract. The contract broke out the fixed-price work into three specific line
items. Two of the line items were for monthly services and one was for weekly
services. The invoice did not state a period of time that it covered. The
receiving report with this payment treated it as a progress payment with a
percentage of work completed rather than a service contract. The description on
the invoice should have been consistent with the line items in the contract and
provided the period of performance.

               Invoice Alteration. DFAS Kansas City’s standard operating
procedures allowed for the alteration of invoice data provided the data was lined
out so the original information could be read and initialed by the person making
the correction. According to 5 C.F.R. Part 1315, an invoice that is missing


                                    15
required data should be returned to the vendor, which can make the needed
corrections and resubmit a clearly marked corrected invoice. Nine invoices
reviewed in our sample were altered to make the information needed for payment
proper. None of the altered invoices were identified as corrected invoices.
When we questioned technicians as to who made the corrections, technicians
could not identify the person making the changes. When we contacted
individuals in the designated billing offices at Marine Corps installations, they
stated that they usually corrected the invoices. Because improper invoices were
not returned to the vendors for correction, future invoices on the contract could
contain identical errors. DFAS should not accept for payment any invoice that
was altered by anyone other than the originator of the invoice.

              Invoices Sent to Other Than the Payment Office. When
invoices were sent to other than the payment office, the invoice receipt dates
were often not used properly to compute the payment due date and the payment
process was delayed.

                        Invoice Receipt Dates. DFAS Kansas City did not use the
correct invoice receipt dates when the date stamp did not clearly identify the
designated billing office. In the sample, 51 of 101 invoices reviewed did not
have invoice receipt dates affixed to the invoices that clearly identified that the
designated billing office had affixed the date to the invoice. To properly
compute payment due dates, the technician must enter into CAPS(W) the date the
invoice was received in the designated billing office. The payment office can
only use the designated billing office’s date stamp when determining the invoice
receipt. If it can not be clearly determined that the date stamp was affixed to the
invoice by the designated billing office, the payment office is required by
5 C.F.R. Part 1315 to use the date placed on the invoice by the vendor. Invoices
that were sent directly to DFAS Kansas City were usually properly date-stamped.
However, when an invoice was sent to an activity other than DFAS Kansas City,
it was often difficult to determine whether the date stamp was affixed to the
invoice by the billing office designated in the contract or by another installation
activity. The date stamp was often just a date affixed to the invoice without any
designation as to which office the stamp belonged. In these instances, DFAS
Kansas City should have used the date of invoice in determining payment dates.
                        Invoices Sent to Installations. Many invoices submitted
for payment were improperly sent to a Marine Corps activity rather than directly
to the DFAS Kansas City payment office. Contracting officers should require
that vendors send invoices to a base-level activity only when a requirement exists
for that activity to certify what was being billed (such as construction payments).
In all other cases, the contracting officer should require that the invoices be sent
directly to DFAS Kansas City. Sending invoices to installations created an
unnecessary requirement that slowed the payment process, increased lost
discounts, and increased the probability that interest would be due the vendor.

               Improvements Required to Invoice Processing. To improve
internal controls over the processing of invoices, DFAS must establish business
rules that require invoices to comply with 5 C.F.R. Part 1315 requirements.
Invoices that do not meet all requirements of a proper invoice should be returned
within 7 days to the vendor with a request that a corrected invoice be submitted.
Marine Corps contracting officers should ensure that contracts clearly identify


                                     16
that each invoice must include a contract number, invoice number and date, and
a clear description of the goods or services provided by the vendor. They should
also reduce the number of invoices being sent to designated billing offices other
than DFAS Kansas City. However, when invoices are sent to designated billing
offices outside the payment office, Marine Corps personnel should be directed to
return them to the vendor for correction instead of altering the invoices to make
them correct. In addition, invoices should be immediately date-stamped with a
stamp that clearly identifies the designated billing office or that identifies the
designated billing office through some other means.

        Receiving Reports. The review of sample payments showed that
86 receiving reports did not properly support the payments. When projected to
the entire population, about 7,315 receiving reports did not meet the 5 C.F.R.
Part 1315 requirements for a proper receiving report and should have been
returned. Appendix C contains details on sample projections. A payment was
assessed as not properly supported if the receiving report did not identify receipt
and acceptance dates; provide a description of the goods received or services
performed; and provide a proper signature, printed name, address, and telephone
number of the receiving or accepting official. Most receiving reports in the
sample were missing the dates of receipt and acceptance and required signature
information. Payments were often supported by a NAVCOMPT Form 2277,
“Voucher for Disbursement and/or Collection,” certified invoices, or locally
developed forms which did not meet 5 C.F.R. Part 1315 requirements for proper
receiving reports. DFAS Kansas City and the Marine Corps did not establish or
enforce clear requirements on the elements required for documenting proper
receipt and acceptance of goods and services. In addition, DoD
Regulation 7000.14-R, volume 10, did not specify what a receiving report must
contain to properly support a payment. The items required for a proper
receiving report are contained in Appendix D.

                Receipt and Acceptance. DFAS Kansas City made payments to
vendors without documentation showing the actual date of receipt and acceptance
of the goods and services. Receipt and acceptance of goods and services are two
separate acts accomplished at the installation level to ensure that items and
services contracted for are received and properly accepted. The sample showed
that 31 of 101 payments were made without receipt and acceptance dates.
Payments were often supported by NAVCOMPT Form 2277. This form showed
the date an official signed the form but often did not specify when goods or
services were received and accepted. Technicians would improperly use the date
the form was prepared or signed by installation personnel as the receipt and
acceptance dates. When the invoices were sent to Marine Corps activities before
being submitted to the payment office as certified invoices, the dates of receipt
and acceptance were recorded on the invoice using an ink stamp. However, the
dates of receipt and acceptance were sometimes not recorded.

               Validity of Receipt and Acceptance Dates. The receipt and
acceptance dates recorded on the forms often did not reflect the actual dates of
receipt and acceptance. We contacted receiving activities and analyzed invoice
and contract data for most sample items and found that 22 of 101 payments were
based on dates on receiving reports that did not reflect the actual date of
acceptance. The dates on the receiving reports usually represented the date on
which the receiver completed the document, not the actual date that the receiver


                                    17
accepted the goods or services. For example, invoice number 2000-CHR5053
was received at DFAS Kansas City as a certified invoice on June 15, 2000. The
invoice and the contract stated that the services were incurred on February 16,
2000. The invoice date was March 14, 2000. However, the receiver recorded
June 13, 2000, as the invoice receipt date, the acceptance date, the date the
invoice was certified, and the date the invoice was sent to disbursing. The
receiver told us that June 13, 2000, was the date that he had signed the invoice
and the actual services had occurred earlier. The use of dates that do not reflect
the actual dates of receipt and acceptance results in the computation of incorrect
payment due dates.

                Description of Goods and Services Received. The review of
sample payments showed that 42 of 101 receiving reports reviewed either did not
properly describe the goods and services received or identified goods or services
that were inconsistent with the items contained in the contract. For example, a
receiving report was sent in by Aberdeen Proving Ground that listed a receipt for
“one pager service” for $78.23. However, the invoice and the contract were for
“service for four pagers” for a total of $78.23. In another instance, the supply
directorate at Marine Corps Air Station, Cherry Point, sent in a receiving report
on a locally developed form. The form had two separate areas where a brief
description of the goods or services should have been listed. However, no
information was entered in either area. Since Marine Corps Air Station, Cherry
Point, listed the invoice number on the form and sent it in with the invoice,
DFAS Kansas City assumed that the goods listed on the invoice were actually
received. Each receiving report is required to stand on its own and should
describe what the activity actually received.

               Required Signature Information. The review of sample
payments showed that 68 of 101 receiving reports did not contain all the required
signature information. Technicians often overlooked the requirement that
receiving reports contain a signature, printed name, mailing address, and
telephone number of the receiving or accepting official on each receiving report,
and made payments without them. Incomplete information regarding the address
or telephone number make it difficult for payment and contracting officials to
subsequently verify acceptance in event of a dispute or other issue concerning the
conditions of the goods received or services performed. By not enforcing the
requirement for required signature information, DFAS Kansas City created an
environment that could result in improper and fraudulent payments that could go
undetected.

                Adequacy of Forms. Most of the forms used to indicate receipt
and acceptance of goods and services were not designed as receiving reports.
Consequently, the forms did not contain space for the receiver to enter a name,
address, title, and telephone number when receiving and accepting goods and
services. NAVCOMPT Form 2277, locally developed forms, and certified
invoices were primarily used as receiving reports. These documents did not
contain all the information required by 5 C.F.R. Part 1315 for proper receiving
reports. NAVCOMPT Form 2277 was designed as a payment voucher and
should not have been used as a receiving report. Certified invoices should only
be used in limited circumstances. DD Form 250, “Material Inspection and
Receiving Report,” should be the primary means for documenting receipt and
acceptance. The form, as revised in August 2000, met all 5 C.F.R. Part 1315


                                    18
    requirements for a proper receiving report when completed correctly. Other
    standard forms, such as DD Form 1155, “Order for Supplies or Services,” may
    also be used for making final payments, provided they contain all of the required
    data elements.

                   Improvements Related to Receiving Reports. DFAS should
    establish and enforce clear requirements on the elements required for
    documenting proper receipt and acceptance of goods and services. Mandating
    the use of DD Form 250 as the primary means for documenting receipt and
    acceptance would significantly improve compliance with 5 C.F.R. Part 1315
    requirements. Guidance should be sent to Marine Corps activities emphasizing
    the requirements for proper receiving reports. The guidance should also
    emphasize that any receiving report that does not meet the requirements of a
    proper receiving report will be returned to the installation. Marine Corps
    managers must ensure that personnel at receiving activities are trained on the
    importance of recording proper dates to prevent the circumvention of the PPA.

            Contracts. The review of 6 sample items showed that the payment was
    not supported by a contract document. The obligation documents used to make
    payments needed to contain sufficient information for the paying office to
    properly match invoice and receipt information and make the payment to the
    correct vendor. The six payments were considered improper since the
    contracting document could not be provided to us for review by the payment
    office and were not contained in the Electronic Data Access system. Other
    contracts were missing key elements such as payment terms, a valid Data
    Universal Numbering System (DUNS) number, or a valid Contractor Activity
    Government Entity (CAGE) code. For example, contracts for 48 of the sample
    items did not provide a valid DUNS number or CAGE code that could be used to
    ensure that the proper information was extracted from the Central Contractor
    Registry. DFAS had implemented a process for extracting the required
    information from the Central Contractor Registry into a Corporate EFT database.
    Since EFT is the primary means of payment, contracting offices need to make
    sure that all contracts provide a valid DUNS number or CAGE code. The Debt
    Collection Improvement Act of 1996 requires that payments be made
    electronically unless EFT requirements were waived under 31 C.F.R.
    Part 208.4.

Support for Miscellaneous Payments
    DoD Regulation 7000.14-R, volume 10, does not identify standard business rules
    for making properly supported miscellaneous payments and DFAS Kansas City
    had not identified the information necessary to properly support each of the
    approximately 30 types of miscellaneous payments. At a minimum, the payment
    office should ensure that a proper funding document exists that supports the
    vendor’s claim against the Government and an employee at the installation
    acknowledges that the item or service being paid for was received and accepted.
    Although DFAS Kansas City tried to control miscellaneous payments, procedures
    were not consistently followed and did not ensure that only proper payments
    were made.



                                        19
Requirements for Proper Support. When miscellaneous payments were held to
5 C.F.R. Part 1315 requirements, the invoices, receiving reports, and obligating
documents supporting the payments were frequently not proper. The sample
showed that about 9,094 payments were made from May 1 through July 31,
2000, without sufficient support (see Appendix C). Improperly supported
payments primarily occurred because receiving reports did not contain enough
information to ensure that the obligating documents were proper or the goods or
services were actually received and accepted by an authorized Government
official. We recommended in Inspector General, DoD, Report No. D-2000-139,
“Controls Over the Integrated Accounts Payable System,” June 5, 2000, that the
Under Secretary of Defense (Comptroller) amend DoD Regulation 7000.14-R,
volume 10, to standardize the rules for making properly supported miscellaneous
payments. The business rules also need to identify how to develop pseudo
contract and invoice numbers; define what dates should be used for receipt of an
invoice and receipt and acceptance of the goods or services; and reemphasize that
receiving reports must identify the name, address, and phone number of the
official accepting or authorizing the miscellaneous payments. The guidance for
making vendor payments in DoD Regulation 7000.14-R, volume 10, had not
been changed as of October 3, 2001. The Director, Commercial Pay Services,
should develop procedures for making properly supported miscellaneous
payments that can be used by payment offices until DoD Regulation 7000.14-R,
volume 10, is changed.

        Pseudo Numbers for Miscellaneous Payments. The process for
establishing pseudo numbers for miscellaneous payments missing an obligating
document or invoice number was inconsistent and increased the risk that
duplicate payments could be made. Invoices related to miscellaneous payments
usually did not contain an obligating document number or an invoice number.
DFAS Kansas City made about 30 different types of miscellaneous payments.
Consequently, technicians assigned to the accounts payable teams had to create
pseudo contract and invoice numbers for entry in CAPS(W).

       •   For recurring monthly payments, such as purchase card and utility
           payments, pseudo contract numbers should have been developed that
           would have provided a history of the payments made for goods and
           services acquired during each fiscal year. Instead, DFAS Kansas City
           created a different pseudo contract number for each monthly purchase
           card and utility payment. Having different pseudo contract numbers
           for each monthly payment created some problems because DFAS
           Kansas City paid current charges on invoices with credit balances and
           past due amounts were not routinely reconciled to ensure that all
           payments had been properly recorded and overpayments did not
           occur. If pseudo contract numbers were standardized by fiscal year,
           technicians would have been able to easily determine whether past due
           amounts were valid, payments were posted to the correct account, and
           overpayments were made.

       •   Our sample contained five payments for childcare services.
           Technicians used three different methods for creating the pseudo
           invoice numbers entered in CAPS(W). A standard method of
           establishing the pseudo contract and invoice numbers should be part of
           the business rules for determining whether miscellaneous payments


                                   20
               are properly supported. Once established, accounts payable
               technicians at DFAS Kansas City should follow the methodology.

    Although DFAS Kansas City had established some guidance as to how to
    establish pseudo numbers, standard business rules had not been established for
    creating these numbers. The establishment of a separate team to work only
    miscellaneous payments would help to ensure that these payments were treated in
    a more uniform manner.

            Proper Receipt and Acceptance. Most miscellaneous payments did not
    provide enough supporting information to ensure that the goods or services were
    actually received and accepted by an authorized Government official. The
    review of sample payments showed that the receiving reports supporting
    89 miscellaneous payments did not contain the name, address, and telephone
    number of the Government official authorizing the miscellaneous payments.
    Payments should not be made unless the goods or services were clearly identified
    and the official’s name, address, and telephone number are on the supporting
    documentation or on a signature card on file in the payment office.

Improper Payments
    Our sample showed that 37 of 208 payments were considered improper because
    the vendor was paid the incorrect amount or the payment should not have been
    made based on the supporting documentation provided. When projected across
    the population, this would result in between 2,045 and 4,680 improper payments.
    We considered payments to be improper when either the amount paid to the
    contractor was incorrect, the proper supporting documentation was not found, or
    the payment was not paid via EFT as required by the contract. For example,
    DFAS Kansas City overpaid 13 invoices and underpaid 5 invoices. The
    underpayments often occurred because DFAS Kansas City miscalculated the
    payment dates and computed interest incorrectly. The payments were not
    actually made until 1 or more days after the computed pay dates. Eight other
    payments were made to contractors by check even though the contractor was
    properly registered in the Central Contractor Registry. In these cases, the law
    required the payment be made via EFT. In another case, DFAS Kansas City
    improperly used a DD Form 1556, “Request, Authorization, Agreement,
    Certification of Training and Reimbursement,” to support a payment of $147,600
    to a vendor for training. DoD Regulation 7000.14-R, volume 10, states that DD
    Form 1556 should only be used to make payments up to $25,000.

Summary
    DFAS Kansas City and Marine Corps managers need to address proper support
    for payments they make to vendors and individuals. 5 C.F.R. Part 1315 contains
    strict requirements for what constitutes properly supported payments made under
    the PPA. For prompt payment, invoices received from vendors should meet all
    requirements of a proper invoice. Invoices that fail to meet the standards need to
    be immediately returned to the vendor for correction. Marine Corps activities
    should perform receipt and acceptance actions immediately upon delivery of any


                                        21
    product or service and submit completed paperwork to the payment office.
    Documents used for receipt should contain all required information or be
    returned for correction. Only the originating activity should alter documents
    supporting payments, and the documents should clearly state that the correction
    was made by that activity. Other activities should not be authorized to make
    corrections to payment documents. Contracting office personnel should write
    contracts that clearly provide all data needed for payment. Contracts should
    detail the items or services being purchased so invoices and receiving reports can
    be validated. Miscellaneous payments require assurance that the items were
    approved for purchase and received by an authorized Government official. The
    Under Secretary of Defense (Comptroller) still needs to amend DoD
    Regulation 7000.14-R, volume 10, to discontinue allowing exceptions to
    requirements for a proper invoice, specify what a receiving report must contain
    to properly support a payment, and standardize the rules for making properly
    supported miscellaneous payments. The Director, Commercial Pay Services,
    should issue interim guidance until DoD Regulation 7000.14-R, volume 10, is
    changed. Marine Corps managers must ensure that personnel at receiving
    activities are trained on the importance of recording proper dates to prevent the
    circumvention of the PPA.

Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, in coordination with the Director, Defense
    Finance and Accounting Service, and the Military Services, require the use
    of the DD Form 250, “Material Inspection and Receiving Report,” as the
    primary means for documenting receipt and acceptance of goods and
    services.

    Under Secretary of Defense for Acquisition, Technology, and Logistics
    Comments. The Director, Defense Procurement, concurred and stated that she
    will request that the Defense Acquisition Regulations Council revise DFARS
    subpart 232.9 to specify the use of the DD Form 250 as the primary means for
    documenting receipt and acceptance of goods and services.

    DFAS Comments. The Director, Commercial Pay Services, partially concurred
    with the recommendation and stated that her office will require the use of DD
    Form 250 if policy is issued by the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Under Secretary of Defense (Comptroller).

    Audit Response. The Director, Defense Procurement, comments were
    responsive. The Director, Defense Procurement, did not include an estimated
    completion date for corrective action. We request that the Director, Defense
    Procurement, provide us with an estimate completion date in response to the final
    report. The DFAS comments were responsive.

    B.2. We recommend that the Director, Commercial Pay Services, issue
    interim guidance until DoD Regulation 7000.14-R, volume 10, is changed.
    The guidance should discontinue exceptions to the requirements for a proper


                                        22
invoice, specify what a receiving report must contain to properly support a
payment, and standardize the rules for making properly supported
miscellaneous payments.

DFAS Comments. The Director, Commercial Pay Services, partially concurred
and stated that DFAS will ensure that vendor payment personnel are aware of
what constitutes a proper invoice and receiving report and the required support
for miscellaneous payments. The Director also stated that DFAS will continue to
use judgement on returning invoices and receiving reports with minor flaws that
do not distract from the validity of the contract, receiving report, and invoice
being in agreement.

Audit Response. The DFAS comments were partially responsive. OMB
guidance contained in 5 C.F.R. Part 1315 clearly defines what constitutes a
proper contract, invoice, and receiving report. DFAS payment offices must
comply with these requirements and return supporting documents that do not
meet requirements to the originator for correction. Further, the DFAS comments
did not sufficiently address the need to develop standard rules for making
miscellaneous payments. We request that DFAS reconsider its position on the
recommendation and provide comments to the final report.

B.3. We recommend that the Director, Commercial Pay Services, in
conjunction with the Marine Corps:

       a. Develop stringent procedures for accepting invoice receipt dates
affixed outside the payment office. Procedures should ensure that the
payment office can determine that the designated payment office
date-stamped the invoice.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS will coordinate with the Marine Corps to establish a procedure
for date-stamping invoices and how DFAS will handle invoices received from the
Marine Corps without a date stamp.

Marine Corps Comments. The Marine Corps did not provide comments to the
draft of this report. Therefore, we request that the Marine Corps provide
comments on the final report.

       b. Return all invoices to vendors that do not meet payment
requirements.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS Kansas City had developed a procedure to return all improper
invoices. In addition, the Marine Corps Liaison Office was provided with
guidance on the requirements for a proper invoice. Any invoice not meeting the
requirements of 5 C.F.R. Part 1315.9(b) will be returned.

Marine Corps Comments. The Marine Corps did not provide comments on the
draft of this report. Therefore, we request that the Marine Corps provide
comments on the final report.




                                   23
       c. Develop and issue guidance to Marine Corps activities identifying
the standards for proper receipt and acceptance of Government goods and
services.

DFAS Comments. The Director, Commercial Pay Services, partially concurred
with the recommendation and stated that DFAS provided the Marine Corps
Liaison Office with information on what constitutes a proper receiving report.
However, the Director stated that DFAS does not issue guidance to Marine
Corps activities.

Audit Response. The DFAS comments were partially responsive. The
Director, Commercial Pay Services, is responsible for ensuring that DFAS
Kansas City ensures proper receipt and acceptance of goods and services before
making payments. Therefore, DFAS must work with Marine Corps managers to
ensure that proper guidance is issued to receiving activities on the standards for
proper receipt and acceptance. We request that DFAS reconsider its position and
provide comments on the final report.

Marine Corps Comments. The Marine Corps did not provide comments on the
draft of this report. Therefore, we request that the Marine Corps provide
comments on the final report.

       d. Provide training to personnel at receiving activities on the
importance of providing payment offices properly completed receiving
reports within 5 days of acceptance of goods and services.

DFAS Comments. The Director, Commercial Pay Services, partially concurred
with the recommendation and stated that DFAS does not provide training to
Marine Corps activities. However, the Director stated that DFAS will assist the
Marine Corps in developing and presenting training on the importance of
completing receiving reports accurately and providing them to DFAS within
5 days of acceptance of goods or services.

Audit Response. The DFAS comments were responsive. DFAS needs to work
with the Marine Corps to ensure that receiving activities provide DFAS with
proper receiving reports in a timely manner.

Marine Corps Comments. The Marine Corps did not provide comments on the
draft of this report. Therefore, we request that the Marine Corps provide
comments on the final report.

B.4. We recommend that the Deputy Chief of Staff for Installations and
Logistics, Marine Corps, ensure that all contracting documents provide the
information necessary for making proper payments, including:

      a. Specifications that invoices include a contract number, invoice
number and date, and clear description, by contract line item, of what the
vendor is invoicing for;

       b. Directions to avoid sending invoices directly to installations unless
the invoices require certification; and



                                    24
      c. Accurate Data Universal Numbering System numbers and
Contractor Activity Government Entity codes.

Marine Corps Comments. The Marine Corps did not provide comments on the
draft of this report. Therefore, we request that the Marine Corps provide
comments on the final report.




                                25
            C. Vendor Payment Office Structure and
               Practices
            The structure and business practices of the vendor payment office at
            DFAS Kansas City did not provide efficient and effective controls over
            vendor payments. Despite actions taken to segregate duties and improve
            accountability over documents, problems continued to exist because:

                •   positive control over payment documents had not been achieved,

                •   supporting documents were not held to proper standards and
                    returned to the originating activities when required,

                •   certification officials did not adequately review all payments, and

                •   responsive actions were not taken to correct previously identified
                    problems and reviews of payment vouchers were not periodically
                    performed.

            As a result, DFAS Kansas City did not ensure that improperly supported
            and erroneous payments would be detected and corrected before payment.

Prior Review of Vendor Payment Operations
     On April 23, 1999, DFAS Arlington reported on a review conducted on vendor
     payment operations at DFAS Kansas City. DFAS Arlington recommended that
     DFAS Kansas City eliminate the mailroom in the vendor payment office and
     relocate mailroom functions to the centralized mailroom; track invoices; restrict
     the ability to change “remit to” information and update contract data to contract
     input technicians; and prohibit certification officials from making changes to
     invoices, receiving reports, contracts, and payment vouchers.

     In FY 2000, DFAS Kansas City reorganized some of its business practices for
     making vendor payments. Technicians in the administrative assistance section
     became solely responsible for entering contract and vendor maintenance data into
     CAPS(W). DFAS Kansas City also limited the CAPS(W) access of lead voucher
     examiners and supervisors who certified payments on each of the accounts
     payable teams.

Office Structure and Business Practices
     DFAS Kansas City failed to develop efficient and effective business practices
     within its vendor payment office that ensured proper document control and
     segregation of duties. Until DPPS and related initiatives aimed at processing




                                         26
payment information in an automated environment can be effectively
implemented, DFAS Kansas City needs to establish a vendor payment office that:

        •   receives and date stamps, immediately upon receipt, all incoming
            documents in a secure centralized mailroom outside the vendor
            payment office;

        •   has a document management section that is the focal point for receipt,
            validation, and control of all documentation supporting vendor
            payments;

        •   ensures that all payments are properly certified; and

        •   works effectively with Marine Corps customers to obtain receiving
            reports for goods and services promptly upon receipt and acceptance.
Positive Control Over Incoming Documentation. Although DFAS Kansas City
changed its document control process, it did not effectively control documents
supporting vendor payments. DFAS Kansas City had only limited visibility and
control over the documents, even after the documents were entered into
CAPS(W). Mailroom operations should be moved to the centralized mailroom,
and a document management section should be established to effectively track,
control, and screen all documents supporting payments.

        Mailroom Operations. The mailroom in the administrative assistance
section was unsecured and provided little positive control over incoming
documents. Positive control over incoming documents is essential. DFAS
Kansas City had a secure centralized mailroom outside the vendor payment office
that could receive and date-stamp all incoming vendor payment documents. In
April 1999, DFAS Arlington recommended that DFAS Kansas City relocate the
mailroom in the vendor payment area to the centralized mailroom along with
facsimile machines receiving vendor payment documents. This change would
have allowed all incoming documents to be received and date-stamped outside of
the vendor payment office. However, DFAS Kansas City did not make the
recommended changes and continued to maintain a mailroom within the
administrative assistance section that opened and date-stamped the mail. Mail
from the U.S. Postal Service was received by the central mailroom, sorted, and
sent unopened to the administrative assistance section. Packages from courier
services usually bypassed the central mailroom and were delivered directly to the
administrative assistance section. Facsimile machines that received vendor
payment documents were located in the administrative assistance section. The
mailroom in the administrative assistance section was not in a secured area and
technicians were allowed to pick up facsimile documents without ensuring that
they were properly date-stamped. Since the date stamp on the invoice is a key
element in determining prompt payment requirements, DFAS Kansas City
needed to move the opening and date-stamping of all incoming vendor payment
documents to the centralized mailroom.

       Document Management. DFAS Kansas City did not effectively track,
control, and screen all documents supporting payments. Beginning in
January 2000, DFAS Kansas City required the administrative assistance section
to open and log all incoming documents into a spreadsheet and then pass them on


                                    27
to the payment technicians. However, documents were not adequately controlled
and the screening of documents to determine compliance with 5 C.F.R.
Part 1315 requirements did not take place early enough in the payment process to
return the documents and make corrections within the prompt payment
timeframe.

                Tracking Documents. The method used by the administrative
assistance section to track documents was slow and ineffective. The
administrative assistance section entered into a spreadsheet all documents
received in the vendor payment office. It used the spreadsheet to track
documents; however, the spreadsheet did not contain detailed information as to
where documents could be found within the vendor payment office. Between
October 31 and November 9, 2000, we observed that mail sat in crates in the
administrative assistance section for at least 5 days awaiting entry into the
spreadsheet. Accounts payable technicians stated that they used the spreadsheet
when a vendor called about the status of a payment. They reviewed the
spreadsheet to determine whether the invoice had been received. However, they
stated that they often did not search the office for missing documents. Instead,
they directed the vendor to fax in a new invoice. One technician told us that the
date stamp on the new facsimile document was used in computing the payment
due date rather than the invoice receipt date for the original invoice in the
tracking spreadsheet. To test controls over the tracking of documents, we
obtained 10 invoices from the mailroom on October 31, 2000, and traced them
through the vendor payment process until November 9, 2000. In order to locate
each of the invoices, technicians had to sort through stacks of documents in and
around their desks. While we eventually located the invoices, 7 of the
10 invoices had not yet been entered into CAPS(W). The spreadsheet should
have been used to locate documents within DFAS Kansas City and determine
invoice receipt dates for lost documents. A measurable standard for entering
documents in CAPS(W) should also be established and monitored.

               Controlling Documents. DFAS Kansas City did not effectively
control the payment folders containing invoices, receiving reports, and obligation
documents. Incoming payment documents were loosely transferred between the
administrative assistance section and accounts payable teams, often more than a
week after arriving at DFAS Kansas City. Accounts payable technicians
validated invoices and receiving reports against the contract and the other
supporting documentation, then placed the documents in payment folders. In
November 2000, we observed stacks and boxes of payment folders, invoices, and
receiving reports on and around technicians’ desks. Usually these piles were
sorted according to whether the documents needed to be entered into CAPS(W),
the payment awaited prevalidation, or the payment needed to be computed. To
locate a payment folder, supervisors had to find the technician responsible for
entering the data into CAPS(W) and then have that technician look through the
stacks of documents in and around the desk or in nearby filing cabinets. To
effectively control documents supporting vendor payments, DFAS Kansas City
needs to establish and maintain payment folders in a document management
section. Maintaining the folders in a document management section would
prevent the flow of loose documentation within DFAS Kansas City. By
reviewing operations at other vendor payment offices using CAPS(W), two
methods were identified that could be used within the document management
section for maintaining effective control over payment documents. The


                                    28
preferable method was to have technicians enter data into CAPS(W). Once the
data were entered, the payment folder could then be signed out to a technician on
an accounts payable team who would compute the payment after verifying the
data had been properly entered into CAPS(W). A less desirable, but acceptable,
means for managing documents and payments was to create a database for
tracking documents that had been signed out to accounts payable teams for
processing. Once data were entered into CAPS(W), the technician would return
the folder to the document management section. Folders would be returned to
the technician only when additional documents required entry into CAPS(W) or
the payment needed to be computed. At DFAS Kansas City, the accounts
payable teams entered invoices and receiving reports into CAPS(W), computed
payments, and certified payments. Keeping the payment folders under the control
of the document management section makes it easier to locate payment folders
and other documents.
                Screening Documents. The administrative assistance section did
not screen incoming documents for compliance with 5 C.F.R. Part 1315
requirements. An effective document management section should conduct a
detailed screening of invoices, receiving reports, and obligation documents.
Deficiencies in payment documents should be identified and promptly returned to
originators so as to minimize unnecessary rework later in the payment process.
To ensure incoming documents are effectively screened, personnel with sufficient
vendor payment experience and knowledge of regulatory procedures should be
assigned to the document management section. At DFAS Kansas City, document
screening did not occur until the accounts payable technician attempted to enter
the document into CAPS(W). By not screening invoices and receiving reports
upon receipt, payments could be delayed and interest paid when technicians
discovered errors when entering the data into CAPS(W). As stated previously,
only 3 of the 10 invoices we traced through the payment process were entered
into CAPS(W) within 9 days of receipt. 5 C.F.R. Part 1315 requires that
improper invoices be returned to vendors within 7 days. Deficiencies detected in
other payment documents should have resulted in those documents being returned
to the originators. However, technicians were often reluctant to return
documents. Delays in identifying deficiencies in invoices and receiving reports
could result in the payment of interest to vendors.

Payment Processing. DFAS Kansas City had not ensured that quality reviews
of supporting documents were fully performed by technicians on the three
accounts payable teams who entered invoices and receiving reports into
CAPS(W). In addition, certification officials were not organizationally
independent and did not always adequately review the documents supporting
vendor payments.

       Quality Reviews of Supporting Documents. Accounts payable
technicians did not perform appropriate reviews to determine whether invoices
and receiving reports complied with 5 C.F.R. Part 1315 requirements. Accounts
payable technicians usually returned invoices for reasons such as missing
descriptions, missing contract numbers, and overbilling. However, the
technicians seldom returned invoices with poor descriptions of goods and
services, that were inconsistent with contracts, or that had been altered. The
technicians did not ensure that invoices and receiving reports met all 5 C.F.R.
Part 1315 requirements. Technicians seldom questioned the need for required


                                   29
information missing on receiving reports or returned them for correction.
Finding B discusses the reasons why payments in our sample were not properly
supported. Appendix D identifies the requirements in 5 C.F.R. Part 1315.

       Certification of Payment Vouchers. Certification officials did not
thoroughly review all payments and supporting documents to ensure that they
were accurate, proper, and correct for payment. Supporting documents were
often missing some of the information required to make proper payments. In
addition, certification officials were not organizationally independent.

                Certifying Procedures. Certification officials did not always
closely review the documents supporting vendor payments to ensure that they
were proper. As discussed in finding B, many problems were identified with the
invoices, receiving reports, and obligating documents that supported vendor
payments made by DFAS Kansas City. Our sample showed that 41 payments
were considered improper because the vendor was paid the incorrect amount or
the payment should not have been made based on the supporting documentation
provided. Certification officials did not detect the problems with the payments.
DFAS Kansas City also used a sampling plan that was incomplete and not
properly approved to certify vendor payments under $2,500. To alleviate the
certification workload, certification officials used statistical sampling procedures
for examining a random number of payment vouchers scheduled for payment.
DoD Regulation 7000.14-R, volume 5, chapter 33, “Accountable Officials and
Certifying Officers,” August 1998, allowed for a prepayment sampling plan for
payments provided the plan was approved by the Office of the Under Secretary
of Defense (Comptroller) or a designee. GAO Policy and Procedures Manual,
Title 7, “Fiscal Guidance,” May 18, 1993, limits this authority to payments
under $2,500. DFAS Kansas City had not requested nor received approval for
its plan. The plan was based on information developed by DFAS Arlington.
However, the plan was incomplete and not always followed. DFAS Kansas City
did not use appropriate sampling techniques and the results of the sampling were
not analyzed to determine whether the risk level remained acceptable or whether
certification of individual payments should be resumed. Although the use of
statistical sampling may be justified, DFAS Arlington needs to closely monitor
the development and use of statistical sampling plans by vendor payment offices.
We believe that a separate plan for sampling miscellaneous payments may need
to be developed. Miscellaneous payments were subject to a higher risk of being
improperly or erroneously paid because of the lack of standard procedures for
making properly supported miscellaneous payments, especially those missing
obligation document numbers and invoice numbers.

                Organizational Placement of Certification Officials.
Certification officials were not organizationally independent. Certification
officials were the lead technicians and supervisors assigned to the accounts
payable teams. Undue influence could be placed on technicians by lead
technicians and supervisors. In August 2000, the DFAS Arlington Internal
Review Office substantiated allegations of password sharing among technicians
on accounts payable teams and a certification official at DFAS Kansas City.
Internal controls for separation of duties were circumvented when the supervisor
asked for and obtained the passwords of her subordinates. Her actions allowed
one individual to be able to enter and approve payments. Although fraud was not
found, the potential existed. Certification officials should be removed from the


                                     30
accounts payable teams and reassigned to a separate section in the vendor
payment office. Establishing a separate group of certification officials would
minimize the potential for undue influence and allow for an independent review
of all payments to ensure compliance with 5 C.F.R. Part 1315 requirements.

Receiving Reports. DFAS Kansas City was not using an available CAPS(W)
report to obtain missing receiving reports. A significant cause of interest
payments made by DFAS Kansas City was due to the inability to obtain proper
receiving reports from receiving activities at installations. As of October 24,
2000, DFAS Kansas City had 527 invoices, valued at $4.97 million, that were
more than 30 days old, but had not been paid because of missing receiving
reports. DFAS Kansas City did not have people designated to aggressively work
with receiving activities to obtain missing documents or to be a focal point to
resolve problems identified in the payment process. Technicians stated that they
had other higher-priority work that took precedence. CAPS(W) report,
“Invoices Without Receiving Reports,” should have been used to identify
invoices that had been entered into CAPS(W) but were missing receiving reports.
The report should have been generated weekly and sent to receiving activities.
DFAS Kansas City had created a separate spreadsheet based on information from
CAPS(W) for prevalidating payments. Although the spreadsheet was provided to
financial managers, it was not sent to receiving activities. We selected 10
invoices on the CAPS(W) report, “Invoices Without Receiving Reports,” as of
October 30, 2000, and contacted receiving activities as necessary. The review
determined that DFAS Kansas City and Marine Corps receiving activities could
do more to make prompt and accurate payments.

       •   We contacted Quantico Marine Corps Base, Quantico, Virginia, for
           receiving reports for five invoices for monthly maintenance services
           from October 1999 through August 2000. The receiving activity
           provided us with a receiving report for the invoices covering services
           from October 1999 through April 2000. After we provided the
           receiving report to the accounts payable technician, the invoices were
           paid with interest. As of April 17, 2001, a receiving report had not
           been provided for services from May through August 2000.

       •   DFAS Kansas City received five invoices between April 18 and 20,
           2000, for receipt of goods. The receiving activity told us that a
           receiving report had been sent to DFAS Kansas City. The copy faxed
           to us indicated the receipt of some goods on April 12, 2000. We
           informed the receiving activity that the receiving report did not meet
           the requirements of a proper receiving report and asked them to send
           in a more detailed receiving report. The Vendor Inquiry System
           showed on February 17, 2001, that the invoices were paid on
           February 7, 2001, without interest. The invoice receipt date was
           January 16, 2001, and receipt and acceptance occurred on
           December 12, 2000. Further analysis showed that DFAS Kansas City
           returned the invoices to the vendor on January 2, 2001, because the
           vendor had changed its name in June 2000. Since DFAS Kansas City
           personnel had valid invoices that were date-stamped in April 2000 and
           they failed to return them to the vendor within 7 days of receipt, they




                                    31
              should have recalculated the invoice receipt date based on the number
              of days they held on to the invoices. The vendor was due about $100
              in interest.

    DFAS Kansas City and the Marine Corps need to work together to ensure that
    receiving reports for goods and services are obtained promptly upon receipt and
    acceptance. CAPS(W) report, “Invoices Without Receiving Reports,” should be
    routinely used to identify and obtain missing receiving reports. Resolving unpaid
    invoices should become more of a joint effort that is monitored closely to ensure
    that prompt and accurate payments are made. DFAS Kansas City should have
    individuals designated to review reports that indicate problems with documents
    needed to support payments and work with customers to receive missing
    information.

Management Oversight
    Operational reviews directed by DFAS Arlington identified problems in vendor
    payment operations at DFAS Kansas City. However, DFAS Kansas City did not
    take appropriate actions in response to those previously identified problems. For
    example, mailroom functions were not relocated to the centralized mailroom and
    certification officials were able to make changes to vendor payment information.
    Also, post-payment reviews were not routinely performed to determine whether
    payments were properly supported and made correctly. Post-payment reviews of
    payment vouchers would help to identify problems with making properly
    supported vendor payments. DFAS needed to ensure that prompt corrective
    actions were taken in response to recommendations of operational review teams.

Summary
    DFAS Kansas City had improved the segregation of duties by establishing a new
    vendor payment structure and limiting access to CAPS(W). However, the
    Director, Commercial Pay Services, needed to change the business structure and
    practices at the DFAS Kansas City for making vendor payments to ensure that
    documents are properly controlled, information in CAPS(W) is correct and
    properly supported, and vendors are paid promptly and accurately. Emphasis
    needs to be placed on determining whether supporting documents comply with all
    requirements. If proper invoices, receiving reports, and obligation documents
    are not received, prompt actions must to be taken to return the documents to
    originators and request proper documentation. DFAS Kansas City and the
    Marine Corps must make a concerted effort to ensure that proper receiving
    reports for goods and services are obtained promptly upon receipt and
    acceptance. To maintain proper segregation of duties, DFAS Kansas City should
    make sure that no one individual can enter or direct the entry of all data needed
    to make payments. Certification officials should be organizationally independent
    to ensure that all payments are accurate, proper, and legal. Responsive actions
    need to be taken to correct previously identified problems and payment vouchers
    should be reviewed to identify problems with making properly supported




                                       32
    payments. DFAS must also develop a comprehensive program to provide
    personnel assigned to the vendor payment office with appropriate training on the
    regulatory requirements for making properly supported payments.

Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Director, Commercial Pay Services, change the
    business structure and practices at the Defense Finance and Accounting
    Service Kansas City for making vendor payments using the Computerized
    Accounts Payable System for Windows. Specifically:

         1. Receive and date-stamp all incoming documents supporting vendor
    payments in a central location outside the vendor payment office.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that the receipt and date-stamping of incoming hard-copy payment
    documents was moved to the centralized mailroom.

           2. Establish a document management section to become the focal
    point for receipt, screening, and control of all documents supporting vendor
    payments.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS will develop a standard organization structure for all vendor
    payment sites. The new structure will incorporate organization and system
    controls that ensure adequate separation of duties and controls over documents.

           3. Segregate the ability to enter information related to invoices and
    receiving reports into the Computerized Accounts Payable System for
    Windows from the ability to enter purchase order data. Alternatively,
    segregate the ability to enter invoices, receiving reports, and obligating
    documents from the ability to compute payments.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS will review system access profiles in CAPS(W) to ensure that
    they provide adequate separation of duties.

          4. Develop standards for entering invoices and receiving reports into
    the Computerized Accounts Payable System for Windows.

    DFAS Comments. The Director, Commercial Pay Services, concurred and
    stated that DFAS will modify employees’ standards to address the quantity and
    quality of invoices and receiving reports entered into CAPS(W).

            5. Organizationally separate certification officials from the accounts
    payable teams. Establish a separate section within the vendor payment
    office for certification officials who ensure that payments are legal, proper,
    and correct before they are certified.



                                       33
DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS will develop a standard organization structure for use by all
vendor payment sites. The new structure will ensure increased controls over
certification duties.

        6. Certify individual vendor payments until a sampling plan for
certifying a representative sample of contract and miscellaneous payments is
developed and approved.

DFAS Comments. The Director, Commercial Pay Services, partially concurred
and stated that DFAS will use the DFAS Arlington statistical sampling guidance
that is currently in coordination for performing pre- and post-payment reviews.

Audit Response. The DFAS comments were partially responsive. The
statistical sampling guidance developed by DFAS Arlington has not been
approved by the Office of the Under Secretary of Defense (Comptroller). Until
DFAS Kansas City has an approved statistical sampling plan, DFAS Kansas City
should manually certify all payment vouchers. We request that DFAS reconsider
its position and provide additional comments to the final report.

       7. Designate individuals to review reports that indicate problems with
documents needed to support payments and work with customers to receive
missing information. Establish a reports and reconciliation section to handle
payment anomalies and reconcile system reports.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that supervisors review and disseminate reports identifying invoices
missing receiving reports and obligations to the Marine Corps Liaison Office.
Supervisors will work with the Marine Corps Liaison Office to obtain missing
documents.

Audit Response. The DFAS comments were generally responsive. The
standard organization structure that DFAS is developing should include a reports
and reconciliation section.
      8. Perform monthly post-payment voucher reviews to ensure that
vendor payments are properly supported and to identify problem areas.

DFAS Comments. The Director, Commercial Pay Services, partially concurred
and stated that post-payment reviews will revert to monthly if the quarterly
reviews identify an unacceptable level of compliance.

Audit Response. The DFAS comments were responsive. We agree that
quarterly reviews should be performed only if they show that a very high
percentage of the payments are properly supported and made correctly.
Otherwise, more frequent reviews would be appropriate.

      9. Develop a comprehensive training program for making properly
supported vendor payments.

DFAS Comments. The Director, Commercial Pay Services, concurred and
stated that DFAS Kansas City developed a new employee training program and


                                    34
provided refresher training to vendor payment personnel. The refresher training
covered the problem areas identified during the audit. The training program will
be updated as needed.




                                   35
Appendix A. Audit Process

Scope
    Work Performed. The controls associated with CAPS(W) and its computation
    of vendor payments at DFAS Kansas City were evaluated including the
    procedures that DFAS Kansas City used to make vendor payments to
    Marine Corps customers. During FY 2000, 75,861 vendor payments, valued at
    about $1.2 billion were made by DFAS Kansas City using CAPS(W). A random
    sample of 208 of the 17,983 payments made from May 1 through July 31, 2000,
    was reviewed. We considered the organizational and system changes made by
    DFAS Kansas City since July 31, 2000.

    General Accounting Office High-Risk Area. GAO identified several high-risk
    areas in the DoD. This report provides coverage of the Defense Financial
    Management and Information Management and Technology high-risk areas.


Methodology
    To assess controls over CAPS(W), we reviewed the system access lists,
    compared the access levels of employees to their job position, observed system
    access by users, and discussed procedures for controlling and changing
    passwords with system personnel. We also reviewed system manuals and
    discussed the functionality of CAPS(W) with systems personnel at DFAS Kansas
    City and Indianapolis.

    From data files obtained from DFAS Kansas City, we randomly selected
    208 vendor payments made using CAPS(W) from May 1 through July 31, 2000.
    See Appendix C for the sampling methodology. From October 2000 through
    April 2001, we reviewed the operations and support for the payments made at
    DFAS Kansas City to determine whether payments were properly authorized,
    approved, and supported. Obligation documents, invoices, receiving reports,
    and payment vouchers were reviewed for accuracy and propriety. We compared
    payment vouchers to source documents to determine whether payments were
    properly supported, in the correct amount, cited proper appropriation data, based
    on the correct invoice receipt dates and receipt and acceptance dates, were
    properly certified, and sent to the correct vendor via the required means of
    delivery.

    We also reviewed guidance for making vendor payments and compared guidance
    issued by DFAS Arlington and Kansas City with guidance in 5 C.F.R.
    Part 1315, the FAR; DFARS subpart 232.9; and DoD Regulation 7000.14-R,
    volumes 5 and 10. We contacted selected receiving activities to determine
    whether they received goods and services for which payments had been made.
    We also contacted several vendors to determine the status of invoices and
    whether payments had been received.



                                       36
    We assessed improvements in vendor payment operations by assessing changes in
    guidance and the actions taken by DFAS Kansas City and the Marine Corps in
    response to prior reviews of vendor payment operations. We held discussions
    with key DFAS Kansas City personnel and Marine Corps financial managers.
    We also determined actions taken to resolve older unpaid invoices by
    judgmentally selecting 10 invoices from a listing of unpaid invoices. We
    determined the status of the invoices, identified problems that delayed the
    payment of the invoices, and for those invoices that were paid as of the date of
    our visit, we reviewed the documents supporting the payments.

    Use of Computer-Processed Data. Although we relied on computer-processed
    data from CAPS(W), we did not evaluate the adequacy of all the system’s
    general and application controls. We determined that password controls over
    CAPS(W) were not adequate and data entered at one location could be altered or
    removed by individuals at other locations. However, we established data
    reliability for the payments we reviewed by comparing data output to source
    documents and through discussions with vendors and receiving activities. Our
    tests disclosed that the data were sufficiently reliable to support the audit
    conclusions and recommendations.

    Audit Type, Dates, and Standards. This financial-related audit was performed
    from October 2000 through May 2001. We did our work in accordance with
    generally accepted Government auditing standards except that we were unable to
    obtain an opinion on our system of quality control. The most recent external
    quality control review was withdrawn on March 15, 2001, and we will undergo a
    new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38 “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over vendor payments made using CAPS(W).
    Specifically, we reviewed management controls over vendor payments at DFAS
    Kansas City. We also reviewed management’s self-evaluation of those controls.

    Adequacy of Management Controls. A material management control weakness
    as defined by DoD Instruction 5010.40 was identified in controls associated with
    making vendor payments using CAPS(W). Management controls were not
    adequate to control access to CAPS(W) and to ensure that all vendor payments
    were properly supported and made for correct amounts. Recommendations A.,



                                       37
B., and C., if implemented, will improve controls over vendor payments. A
copy of the report will be provided to the senior official in charge of management
controls in DFAS.

Adequacy of Management’s Self-Evaluation. DFAS Kansas City identified
vendor payments as an assessable unit and, in our opinion, correctly identified
the risk associated with vendor payments as high. DFAS Kansas City reported
problems with controls over the processing of CAPS(W) payments as material
management control weaknesses in its FY 1999 Annual Statement of Assurance.
DFAS Kansas City reported in its FY 2000 Annual Statement of Assurance that
it had improved controls over the processing of CAPS(W) payments, but
reported a lack of internal controls over access to CAPS(W) as a material
management control weakness. DFAS Kansas City indicated that resolution of
the system access problems was outside its control and requested assistance in
resolving them from DFAS Arlington. We disagree with the assertions made in
the FY 2000 Annual Statement of Assurance that DFAS Kansas City had
corrected control weaknesses in vendor payment operations and taken all the
actions it could to improve access to CAPS(W). As highlighted in this report,
the management control weaknesses related to CAPS(W) in the FYs 1999 and
2000 Annual Statements of Assurance still exist. Additional system weaknesses
also exist that have not been reported. DFAS Kansas City should either correct
identified material control weaknesses related to making payments using
CAPS(W) or report them as a material management control weakness.




                                    38
Appendix B. Prior Coverage
    During the last 5 years, GAO and the Inspector General, DoD, have issued
    several audit reports discussing issues related to vendor payments.

General Accounting Office
    GAO Report No. GAO-01-309 (OSD Case No. 3029), “Excess Payments and
    Underpayments Continue to be a Problem at DoD,” February 22, 2001

    GAO Report No. GAO/AIMD-00-10 (OSD Case No. 1919), “Increased
    Attention Needed to Prevent Billions in Improper Payments,” October 29, 1999

    GAO Report No. GAO/AIMD-98-274 (OSD Case No. 1687), “Improvements
    Needed in Air Force Vendor Payment Systems and Controls,” September 28,
    1998

    GAO Report No. GAO/OSI-98-15 (OSD Case No. 1687-A), “Fraud by an
    Air Force Contracting Official,” September 23, 1998

Inspector General, DoD
    Inspector General, DoD, Report No. D-2000-139, “Controls Over the Integrated
    Accounts Payable System,” June 5, 2000

    Inspection General, DoD, Report No. 97-052, “Vendor Payments - Operation
    Mongoose, Fort Belvoir Defense Accounting Office and Rome Operating
    Location,” December 23, 1996




                                      39
Appendix C. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to estimate
    the number of vendor payments that did not have proper documentation by type
    of payment and type of document. The statistical sampling plan was also used
    to estimate the number of improper payments, once it was determined that a
    payment was not properly supported. The payments were reviewed to
    determine whether documentation was adequate and complied with 5 C.F.R.
    Part 1315 requirements.

    Universe Represented. DFAS Kansas City provided a database of vendor
    payments made using CAPS(W) from May 1 through July 31, 2000. The file
    contained records on 17,987 vendor payments. The total dollar value of the
    vendor payments in the population was $290.6 million.

    Sampling Design. The sampling design used to determine whether or not the
    vendor payments had proper documentation was a stratified attribute design.
    The population was divided into three strata: payments valued at less than
    $2,500, payments valued at least $2,500 but less than $1 million, and payments
    valued at $1 million or more. A total of 208 payments (101 contractual and 107
    miscellaneous) were randomly selected: 130 from the first stratum, 60 from the
    second stratum, and 18 from the third stratum.

Sampling Results
    Table C-1 identifies the statistical estimates of vendor payments that were not
    properly supported by type of payment.

                  Table C-1. Payments Not Properly Supported
                         (99-Percent Confidence Level)

     Type of           Lower Bound           Point Estimate       Upper Bound
     Payment

    Contractual            5,921                  7,511               9,100

   Miscellaneous           7,457                  9,094               10,731


    We are 99-percent confident that from 5,921 to 9,100 contractual vendor
    payments were not properly supported. Also, we are 99-percent confident that
    from 7,457 to 10,731 miscellaneous vendor payments were not properly



                                        40
supported. Table C-2 identifies the statistical estimates of contractual vendor
payments that were not properly supported by document type.

               Table C-2. Contractual Payments Not Properly
                       Supported by Document Type
                       (99-Percent Confidence Level)

  Type of
 Document           Lower Bound          Point Estimate       Upper Bound

  Invoices             1,671                  2,916               4,160

 Receiving             5,727                  7,315               8,904
  Reports

 Contracts              (17)                   604                1,225


We are 99-percent confident that from 1,671 to 4,160 vendor payments were not
properly supported due to improper invoices. We are 99-percent confident that
from 5,727 to 8,904 vendor payments were not properly supported due to
improper receiving reports. The estimates of vendor payments that were not
properly supported by contract passes through zero; therefore, the estimate for
contracts is not considered significantly different than zero and will not be used
in the report. We are also 99-percent confident that from 933 to 3,053
payments were made using receiving reports containing inaccurate dates. Each
of the individual estimates is projected at the 99-percent confidence level.
However, taking a conservative approach, reviewing each of the 10 estimates as
an independent projection, we estimate the overall confidence level for all 10
estimates simultaneously is approximately 90-percent.

Table C-3 identifies the statistical estimates of miscellaneous vendor payments
that were not properly supported by document type.

               Table C-3. Miscellaneous Payments Not Properly
                        Supported by Document Type
                        (99-Percent Confidence Level)

    Type of
   Document           Lower Bound            Point Estimate       Upper Bound

    Invoices               (64)                   463                  990

   Receiving              6,985                  8,614               10,244
    Reports

  Obligation               251                   1,032                1,813
  Documents


                                    41
 We are 99-percent confident that from 6,985 to 10,244 vendor payments were
 not properly supported due to improper receiving reports. We are 99-percent
 confident that from 251 to 1,813 vendor payments were not properly supported
 due to improper obligation documents. The estimates of vendor payments that
 were not properly supported by invoices passes through zero; therefore, the
 estimate for contracts is not considered significantly different than zero and will
 not be used in the report. Each of the individual estimates is projected at the
 99-percent confidence level. However, taking a conservative approach,
 reviewing each of the 10 estimates as an independent projection, we estimate the
 overall confidence level for all 10 estimates simultaneously is approximately
 90-percent.

 Table C-4 identifies the statistical estimates of contractual and miscellaneous
 payments that were improper payments.

                     Table C-4. Improper Payments
                      (99-Percent Confidence Level)

  Type of           Lower Bound            Point Estimate       Upper Bound
  Payment

 Contractual            1,617                  2,845                4,073

Miscellaneous            190                    926                 1,661


 We are 99-percent confident that from 1,617 to 4,073 contractual payments
 were improper payments. Also, we are 99-percent confident that from 190 to
 1,661 miscellaneous payments were improper payments. Improper payments
 were payments that should not have been made or were made for incorrect
 amounts. Specifically, improper payments included payments for unsupported
 or inadequately supported claims, overpayments, and underpayments.




                                     42
Appendix D. Guidance on Supporting
            Documentation
   The principal guidance used for making payments to vendors is the PPA, as
   implemented by OMB in 5 C.F.R. Part 1315, “Prompt Payment; Final Rule,”
   September 29, 1999. The requirements for supporting documentation are
   further defined in FAR subpart 32.9, “Prompt Payment;” DFARS subpart
   232.9, “Prompt Payment;” and DoD Regulation 7000.14-R, volume 10,
   “Contract Payment Policy and Procedures,” November 1999.

   On August 28, 2000, a proposed rule was published for comment in the Federal
   Register “Federal Acquisition Regulation; Prompt Payment and the Recovery of
   Overpayment; Proposed Rule.” The proposed change revises the FAR to
   incorporate 5 C.F.R. Part 1315 and implements a GAO recommendation to
   require contractors who have been overpaid to notify contracting officers of
   overpayments. The FAR council must issue a Federal Acquisition Circular to
   change the FAR. DFARS subpart 232.9, also has not been changed.

   In Inspector General, DoD, Report No. D-2000-139, “Controls Over the
   Integrated Accounts Payable System,” June 5, 2000, we recommended that
   DoD Regulation 7000.14-R, volume 10, be amended to fully comply with
   5 C.F.R. Part 1315 requirements and include standardized rules for making
   properly supported miscellaneous payments. DoD Regulation 7000.14-R,
   volume 10, has not yet been changed. The Under Secretary of Defense
   (Comptroller) stated that DoD Regulation 7000.14-R, volume 10, would not be
   changed until 5 C.F.R. Part 1315 is incorporated in the FAR.

   DFAS Kansas City issued revised vendor pay standard operating procedures in
   October 2000. However, the DFAS Kansas City guidance did not include the
   requirements in 5 C.F.R. Part 1315.

   Invoices. 5 C.F.R. Part 1315 requires that the vendor send an invoice to the
   designated billing office specified in the contract when goods are delivered or
   services performed. The designated billing office is required to immediately
   date-stamp the invoice and perform a review to determine whether the invoice is
   proper for payment. If the invoice is determined to be proper, it should be sent
   to the payment office for entry into CAPS(W) and payment. If determined to be
   improper, the invoice should be returned to the vendor within 7 days of receipt
   (for most invoices), identifying all defects that prevented payment and
   requesting that the vendor send a clearly marked corrected invoice to the
   designated billing office for payment.

   Specifically, 5 C.F.R. Part 1315.9, “Required Documentation,” states that:
          (b) The following correct information constitutes a proper invoice and
          is required as payment documentation:

          (1) Name of vendor;



                                           43
              (2) Invoice date;

              (3) Government contract number, or other authorization for delivery
                  of goods or services;

              (4) Vendor invoice number, account number, and/or any other
                  identifying number agreed to by contract;

              (5) Description (including for example, contract line/subline
                  number), price, and quantity of goods and services rendered;

              (6) Shipping and payment terms (unless mutually agreed that this
                  information is only required in the contract);

              (7) Taxpayer Identification Number (TIN), unless agency procedures
                  provide otherwise;

              (8) Banking information, unless agency procedures provide
                  otherwise, or except in situations where the EFT requirement is
                  waived under 31 CFR 208.4;

              (9) Contact name (where practicable), title and telephone number;

              (10) Other substantiating documentation or information required by
                   the contract.

In addition to these requirements, the proposed change to the FAR specifies EFT
requirements and states that contractors should assign an identification number to each
invoice.

DoD Regulation 7000.14-R, volume 10, allows exceptions to requirements for a valid
invoice. DoD Regulation 7000.14-R, volume 10, states that it is not necessary for an
invoice to be free of defects in order for it to be proper and create a valid demand on
the Government; the approving activity determines whether a valid demand exists.
These exceptions are contrary to 5 C.F.R. Part 1315 and FAR requirements. The
chapters of DoD Regulation 7000.14-R have not been updated since 1996 and state that
if inconsistencies exist between the FAR and the regulation, the FAR controls. In
assessing whether an invoice was proper, we used 5 C.F.R. Part 1315 requirements.
Specifically, invoices were considered improper if they did not contain a contract or
obligating document number, or did not adequately describe what was purchased or the
description was inconsistent with the contract. The FAR requires that an invoice that is
missing required data be returned to the vendor within 7 days of receipt, which can
make the needed corrections and resubmit a clearly marked corrected invoice.
Consequently, invoices were also considered improper if they were altered.

Receiving Reports. 5 C.F.R. Part 1315 requires that receipt and acceptance be
promptly recorded at the time of delivery of goods or completion of services.
Receiving activities were required to submit a receiving report immediately upon each
delivery of goods or completion of services unless the contract stated that partial
payment was not authorized. Receiving activities were to forward a proper receiving



                                              44
report to the payment office by the fifth working day after acceptance. 5 C.F.R.
Part 1315.9 states that:
              (c) The following information from receiving reports, delivery tickets,
              and evaluated receipts is required as payment documentation:

              (1) Name of vendor;

              (2) Contract or other authorization number;

              (3) Description of goods or services;

              (4) Quantities received, if applicable;

              (5) Date(s) goods were delivered or services were provided;

              (6) Date(s) goods or services were accepted;

              (7) Signature (or electronic alternative when supported by
                  appropriate internal controls), printed name, telephone number,
                  mailing address of the receiving official, and any additional
                  information required by the agency.

The proposed change to the FAR basically restates existing requirements
for receiving reports. The proposed change states that:
              (c) Authorization to pay. . . .The receiving report or other
              Government documentation authorizing payment must, as a minimum,
              include the following:

              (1) Contract number or other authorization for supplies delivered or
                  services performed.

              (2) Description of supplies delivered or services performed.

              (3) Quantities of supplies received and accepted or services
                  performed, if applicable.

              (4) Date supplies delivered or services performed.

              (5) Date that the designated Government Official -

                       (i)      Accepted the supplies or services; or

                       (ii)     Approved the progress payment request, if the
                                request is being made under the clause at 52.232-5,
                                Payments      Under    Fixed-Price     Construction
                                Contracts, or the clause at 52.232-10, Payment
                                Under Fixed-Price Architect-Engineering Contracts.




                                                45
       (6) Signature, printed name, title, mailing address, and telephone
           number of the designated Government official responsible for
           acceptance or approval functions.

DoD Regulation 7000.14-R, volume 10, does not specify what a receiving
report must contain to properly support a payment. Most items in the sample
were missing the dates of acceptance and required signature information.

Contracts. To properly support a payment, the paying office must have a
signed contract or other authorization document against which payment is being
made. 5 C.F.R. Part 1315.9 states that:
       (a) The following information from the contract is required as
       payment documentation:

       (1) Payment due date(s) as defined in Sec. 1315.4(g);

       (2) A notation in the contract that Partial payments are prohibited, if
           applicable;

       (3) For construction contracts, specific payment due dates for
           approved progress payments or milestone payments for completed
           phases, increments, or segments of the project;

       (4) If applicable, a statement that the special payment provisions of
           the Packers and Stockyard Act of 1921 (7 U.S.C. 182(3)), or the
           Perishable Agricultural Commodities Act of 1930 (7 U.S.C.
           499a(4)), or Fish and Seafood Promotion Act of 1986 (16 U.S.C.
           4003(3)) shall apply;

       (5) Where considered appropriate by the agency head, the specified
           acceptance period following delivery to inspect and/or test goods
           furnished or to evaluate services performed is stated;

       (6) Name (where practicable), title, telephone number, and complete
           mailing address of officials of the Government’s designated
           agency office, and of the vendor receiving the payments;

       (7) Reference to requirements under the Prompt Payment Act,
           including the payment of interest penalties on late invoice
           payments (including progress payments under construction
           contracts);

       (8) Reference to requirements under the Debt Collection
           Improvement Act (Pub. L. 104-134, 110 Stat. 1321) including the
           requirement that payments must be made electronically except in
           situations where the EFT requirement is waived under 31 CFR
           208.4. Where electronic payment is required, the contract will
           stipulate that banking information must be submitted no later than
           the first request for payment.




                                         46
Many contracts were missing key elements such as payment terms, a valid
DUNS number, or a valid CAGE code. Although the lack of this information
did not make the contract improper, it made proper payment difficult. For
example, contracts should have contained a DUNS number or CAGE code
because one was needed to locate EFT information for payment in the
Contractor EFT database.




                                 47
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Commandant, United States Marine Corps
  Deputy Chief of Staff for Installations and Logistics
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Commercial Pay Services

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs



                                          48
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         49
Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                   51
52
Defense Finance and Accounting Service
Comments




                   53
54
55
56
57
58
59
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Carmelo G. Ventimiglia
George C. DeBlois
Michelle D. Pippin
Rebecca L. Niemeier
Lusk F. Penn
